OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/MONGOLIA’S
ECONOMIC POLICY REFORM
AND COMPETITIVENESS
PROJECT

AUDIT REPORT NO. 5-438-08-011-P
SEPTEMBER 26, 2008




MANILA, PHILIPPINES
Office of Inspector General


September 26, 2008

MEMORANDUM

TO:                USAID/Mongolia Country Representative, Barry K. Primm

FROM:              Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:           Audit of USAID/Mongolia’s Economic Policy Reform and Competitiveness Project
                   (Report No. 5-438-08-011-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit.
In finalizing the report, we considered your comments to the draft report and included the
comments (without attachments) in appendix II.

This report contains two recommendations intended to improve the Economic Policy Reform
and Competitiveness Project’s performance management plan and strengthen the data quality
of its performance indicators and reported results. Based on your comments and the
documentation provided, we determined that final actions have been taken on both
recommendations.

Thank you for the cooperation and courtesy extended to us during the audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
President Diosdado Macapagal Blvd., 1308
Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

     Has USAID/Mongolia’s Economic Policy
     Reform and Competitiveness Project achieved
     planned results and what has been the impact?

Audit Findings ................................................................................................................. 4

     The Economic Project’s Performance
     Management Plan Needs Improvement...................................................................... 6

     Mission Needs to Conduct Data Quality
     Assessment of Economic Project’s
     Performance Indicators ............................................................................................... 9

Evaluation of Management Comments ....................................................................... 11

Appendix I – Scope and Methodology ........................................................................ 12

Appendix II – Management Comments ....................................................................... 14
SUMMARY OF RESULTS
Rapid political changes in the early 1990s, particularly the dissolution of the Soviet Union
in 1991 and the termination of all Soviet assistance to Mongolia shortly thereafter, set
the stage for Mongolia's efforts to develop a market economy.                   Since 1995,
USAID/Mongolia has launched a number of programs to assist the Government of
Mongolia in the design and implementation of economic policy and to strengthen the
policymaking capacities of government officials (see page 2).

In September 2003, USAID/Mongolia awarded a 5-year $17 million contract to
Chemonics International, Inc. (Chemonics) to implement the Economic Policy Reform
and Competitiveness Project (Economic Project). The contract was subsequently
increased to $19 million. The Economic Project’s main objectives were to (1) accelerate
and deepen the policy reform process in Mongolia, (2) promote increased
competitiveness in the Mongolian economy, and (3) enable and support competitive
participation of Mongolia in the global economy (see page 2).

The Office of Inspector General conducted this audit as part of its fiscal year 2008 audit
plan to determine whether USAID/Mongolia’s Economic Project achieved its planned
results and what its impact has been (see page 3).

The audit concluded that USAID/Mongolia’s Economic Project achieved or made
progress toward achieving its planned results and made an impact. For example, the
Economic Project helped propose, pass, and implement four competitiveness-based tax
law reforms. The tax law reforms represent important steps in moving Mongolia’s tax
system closer to international best practice standards. The Economic Project also
enhanced Mongolia’s energy regulatory framework to help promote a competitive and
efficient delivery of energy services to consumers and make an attractive environment
for foreign and domestic private investment. Furthermore, the Economic Project
promoted government transparency and enhanced the quality of public dialog by
providing user-friendly, easy-to-understand, and specific information to educate
Mongolians on issues of public concern (see page 4).

Although the Economic Project did not fully achieve some of its planned results, it was
making progress toward completion. The Economic Project had no direct control over
the timing and/or achievement of some results, such as passage of specific laws,
adoption of certain regulations, and the changing political environment in Mongolia,
which delayed implementation of certain components, such as energy (see page 5).

The audit identified areas where the mission could improve the Economic Project’s
performance management plan (see page 6) and strengthen the data quality of its
performance indicators and reported results (see page 9). This report made two
recommendations to address these issues (see pages 9 and 10).

Based on the Office of Inspector General’s review of USAID/Mongolia’s comments,
detailed actions, and supporting documents received, the audit determined that final
actions have been taken on both recommendations (see page 11).




                                                                                          1
BACKGROUND
Mongolia is a landlocked country in East-Central Asia of just over 603,000 square miles,
about the size of Alaska. The country borders Russia to the north and China to the
south. With approximately 3 million people, Mongolia has one of the lowest population
densities in the world. Ulaanbaatar, the capital and largest city, is home to about 38
percent of the country’s population.

Rapid political changes in the early 1990s, particularly the dissolution of the Soviet Union
in 1991 and the termination of all Soviet assistance to Mongolia shortly thereafter, set
the stage for Mongolia's efforts to develop a market economy. By the mid-1990s,
Mongolia appeared to have endured the most difficult aspects of the transition.
Improved macroeconomic management was having a positive impact, especially in
terms of exchange rate stabilization and decreases in inflation. Politically, Mongolia
achieved a successful transition toward a parliamentary democracy.

In the early 2000s, this political stability helped Mongolia with its macroeconomic
management. However, like many former communist countries in transition, the country
struggled with improving performance across a range of areas necessary to increase
economic growth. Among these areas were anticorruption, tax reform, macroeconomic
policy, small-business development, commercial law, law enforcement, competition and
trade policy, enterprise privatization and restructuring, banking reform, and land use
administration.

Since 1995, USAID/Mongolia has launched a number of programs to assist the
Government of Mongolia in the design and implementation of economic policy and to
strengthen the policymaking capacities of government officials. In September 2003,
USAID/Mongolia awarded a 5-year $17 million contract to Chemonics International, Inc.
(Chemonics) to implement the Economic Policy Reform and Competitiveness Project
(Economic Project). The contract was subsequently increased to $19 million. The
Economic Project’s main objectives were to (1) accelerate and deepen the policy reform
process in Mongolia, (2) promote increased competitiveness in the Mongolian economy,
and (3) enable and support competitive participation of Mongolia in the global economy.

To accomplish the above objectives, the Economic Project was designed to focus on
four main components:

   1. Economic and trade policy.          Continuation of the development and
   implementation of sound, market-oriented macroeconomic, microeconomic, trade
   and investment, and sectoral policies that promote sustainable and equitable
   economic growth.

   2. Energy. Development of a transparent, market-oriented regulatory environment
   that promotes competitive and efficient delivery of energy services to consumers and
   an attractive environment for foreign and domestic private investment.

   3. Business competitiveness. Development of private sector businesses and
   clusters that focuses on supplying demand of target export and domestic market
   niches capable of turning and maintaining comparative advantages into competitive


                                                                                          2
   edges. Priority niches include cashmere, tourism, hides, skins, leather, meat, and
   textiles.

   4. National Dialog. Development of public education and national discourse to
   improve government transparency and corporate governance that builds consensus
   among national decision makers, businesses, local government and community
   leaders, academic institutions, and civil society representatives by linking policy
   reform and private sector-led economic growth.

As of December 31, 2007, USAID/Mongolia obligated about $19 million and disbursed
$17 million for the Economic Project’s activities. The Economic Project was to end in
September 2008, but USAID/Mongolia exercised its option to extend the contract with
Chemonics for another 3 years (October 2008 to October 2011).




                                                    Office of Inspector General photograph
                                                    of the Tourist Information Center
                                                    supported by the Economic Project in
                                                    Ulaanbaatar, Mongolia (June 2008).




AUDIT OBJECTIVE
The Office of Inspector General conducted this audit as part of its fiscal year 2008 audit
plan to answer the following question:

   Has USAID/Mongolia’s Economic Policy Reform and Competitiveness
   Project achieved planned results and what has been the impact?

Appendix I contains a discussion of the audit scope and methodology.




                                                                                        3
AUDIT FINDINGS
USAID/Mongolia’s Economic Policy Reform and Competitiveness project (Economic
Project) achieved or made progress toward achieving its planned results. In addition,
the Economic Project accelerated the policy reform process in Mongolia, promoted
competitiveness in the Mongolian economy, and enabled and supported competitive
participation of Mongolia in the global economy. Table 1 presents the Economic
Project’s significant representative achievements and impact in each of its four project
components as of December 31, 2007.
         Table 1: Economic Project’s Significant Achievements and Impact

        Significant Achievements                                  Impact
                       Component #1: Economic and Trade Policy
 New tax laws: Helped propose, pass, and        The tax law reforms represent important steps
 implement four competitiveness-based tax       in moving Mongolia’s tax system closer to
 law reforms: (1) personal income tax, (2)      international best practice standards. In
 corporate income tax, (3) value added tax,     general, the new laws reduced tax rates,
 and (4) excise tax. These laws became          flattened the tax schedule, removed
 effective on January 1, 2007.                  discriminatory loopholes and exemptions, and
                                                introduced appropriate deduction
                                                opportunities for corporate investment.
                                  Component #2: Energy
 Enhanced energy regulatory framework:          The enhanced energy regulatory framework
 Provided technical support to the newly        helped Mongolia’s efforts to develop and
 established Mongolian Energy Regulatory        implement a transparent, market-oriented
 Authority, which included developing and       regulatory environment to promote
 implementing a Uniform Chart of Accounts       competitive and efficient delivery of energy
 compliant with International Financial         services to consumers, commercial practices
 Reporting Standards; establishing an Audit     in energy generation and distribution, and an
 Department; helping with public hearing        attractive environment for foreign and
 procedures, licensee performance               domestic private investment.
 agreements, and tariff development; and
 improving consistency of agencies’ practices
 and regulations.
                       Component #3: Business Competitiveness
 Developed secondary mortgage market:           MIK was Mongolia’s first private sector-
 Assisted 10 private sector banks and the       managed secondary mortgage institution,
 Bank of Mongolia with creation of the          created to ensure the smooth functioning of a
 Mongolian Mortgage Corporation (MIK) and       long-term financing system and to promote
 helped MIK with its first purchase of          affordable home ownership and urban
 mortgages.                                     development.
                            Component #4: National Dialogue
 Created national multimedia Open Talks:        The national Open Talks promoted
 Designed and implemented an “Open Talks”       government transparency and enhanced the
 program of national television and radio,      quality of public dialog by providing user-
 Internet chat server, open telephone lines,    friendly, easy-to-understand, and specific
 and mobile phone text messages where           information to educate Mongolians on issues
 citizens dialog with government and private    of public concern.
 sector decision makers on issues such as
 economic policies, taxes, housing finance,
 railroad transportation, and logistics.


                                                                                                4
                                                  Front cover of a brochure that provides
                                                  information about the new Personal Income
                                                  Tax Law of Mongolia that went into effect
                                                  on January 1, 2007. The Economic Project
                                                  helped propose, pass, and implement this
                                                  law, and also assisted with preparing this
                                                  brochure (General Department of National
                                                  Taxation, Ministry of Finance).




Although the Economic Project did not fully achieve some of its planned results, it was
making progress toward its goals. The lag in achievement occurred mostly because the
Economic Project had no direct control over the timing and/or achievement of certain
planned results, such as passage of specific laws, adoption of certain regulations, and
changes in the political environment in Mongolia, which delayed implementation of
certain components, such as energy. The Economic Project expects to complete the
planned results that were under its direct control by June 2008 or in the new 3-year
contract extension period.

However, upon the audit’s examination of the Economic Project’s performance results
framework, USAID/Mongolia and Chemonics set ambitious outcome-based standards of
achievement for the Economic Project’s planned results. Indeed, this approach moved
the project forward in a political environment that was sometimes very difficult to work in,
but at the same time it held the Economic Project to certain goals that were outside its
immediate control. This ambitious approach particularly occurred in the area of passing
specific laws and adoption of certain regulations, an area that was ultimately only within
the control of the Government of Mongolia. Passage of these laws and regulations
could be and was assisted—in many cases greatly assisted—by the Economic Project
but ultimate passage was outside the control of the project, USAID Mongolia, or the
larger U.S. government mission in Mongolia.

Although USAID/Mongolia’s Economic Project achieved a number of its planned results
and made an impact, the following sections discuss areas where the mission could
improve the Economic Project’s performance management plan and strengthen data
quality of its performance indicators and reported results for the new 3-year contract
extension period.




                                                                                          5
The Economic Project’s
Performance Management Plan
Needs Improvement

    Summary: USAID guidance states that a performance management plan is a critical
    tool for planning, managing, and documenting data collection; it contributes to the
    effectiveness of the performance monitoring system by ensuring that comparable
    data will be collected on a regular and timely basis. However, the Economic Project’s
    performance management plan fell short in several ways with its performance
    indicators and targets. This occurred primarily because USAID/Mongolia and the
    Economic Project used other performance monitoring and reporting tools, while the
    performance management plan was neglected and became less useful and relevant.
    As a result, the Economic Project’s performance management plan was outdated and
    was not effective for observing progress and measuring actual results compared to
    expected results.

USAID/Mongolia’s contract with Chemonics required that a performance management
plan1 be developed to measure the Economic Project’s progress throughout the life of
the project. According to USAID’s Automated Directives System (ADS) 203.3.4,
performance indicators must be included in performance management plans to observe
progress and to measure actual results compared to expected results. ADS 203.3.4.1a
states that selected performance indicators for the performance management plan
should be the most appropriate for the result being measured. Further, ADS 203.3.4.5
states that for each indicator in a performance management plan, performance targets
should be set optimistically but realistically to achieve them within the stated timeframe
and with the available resources.

However, the Economic Project’s performance management plan indicators and targets
fell short in several ways. Specifically, 14 of the 39 performance indicators that the
Economic Project reported to USAID could not be used because (1) they were outside
the manageable interest of the project and not a good measure of performance, (2) they
did not have targets or expected results, (3) they had been completed previously, or
(4) their related activities were dropped. The audit could measure and test only 25 of the
39 performance indicators as of December 31, 2007.

Additionally, several key indicators were not precisely defined. For example, indicators
related to laws and regulations did not clearly measure how many were to be proposed,
considered, passed, and implemented, and they did not properly aggregate detailed
targets and actual results. ADS 203.3.4.2 states that indicators should be precisely
defined in the performance management plan.

As another example of an imprecise indicator, the indicator that measured “gross tourist
receipts” was misleading because it actually measured airport departure tax. Although

1
  The original contract referred to a performance monitoring plan. According to USAID’s
Automated Directives System 200.6, the term “performance management plan” superseded
“performance monitoring plan” in 2002. For purposes of this audit report, the Office of Inspector
General will use the term performance management plan.



                                                                                               6
ADS 203.3.4.2 states that good performance indicators can include such proxies,2 the
use of proxies and the assumptions supporting their selection should be clearly defined
and documented in the performance management plan and confirmed on a regular
basis.

The Economic Project also performed a number of activities that were not captured or
measured in any of the performance indicators, such as assisting the General
Department of National Taxation with developing training materials, providing training to
tax inspectors and tax supervisors, and drafting selected model regulations and public
hearing procedures.      ADS 203.3.4.1 states that operating units should select
performance indicators that are the most appropriate for the result being measured, and
ADS 203.3.4.2 states that operating units should have as many indicators in their
performance management plan as are necessary and cost-effective for management
and reporting purposes.

The shortcomings in the performance management plan occurred for several reasons:

•   Performance management plan not submitted to USAID for formal approval. In
    November 2006, USAID/Mongolia worked with the Economic Project to bring the
    project performance indicators more in line with the mission’s performance
    management plan. This change resulted in 39 new project performance indicators
    under 16 different key result areas. The Economic Project incorporated the new
    indicators into its performance management plan but did not submit the changes to
    the mission for formal approval. The mission reviewed the indicators at its
    November 2006 annual portfolio review but did not formally approve them until
    October 2007—long after they were submitted to USAID as an integral part of the
    Economic Project’s 2007 annual work plan, and about 10 months after the project
    year started. According to the mission’s records, this was the first opportunity to
    formally approve the new performance indicators, which were established a year
    before.

•   Lack of cognizant technical officer continuity.         From September 2003 until
    June 2008, USAID/Mongolia’s cognizant technical officer for the Economic Project
    changed five times (three different cognizant technical officers). As a consequence,
    there was a lack of staff continuity and continuous attention to the Economic
    Project’s performance management plan and performance reporting. The mission
    explained that the principal cognizant technical officer for the Economic Project was
    the senior program manager and that four of the five staff turnovers resulted from his
    two temporary duty assignments in Afghanistan. Although the mission conducted
    annual portfolio reviews in 2006 and 2007, which included the Economic Project,
    mission officials stated that the lack of continuity in cognizant technical officers
    prevented the mission from addressing all of the problems with the indicators.

•   No full-time monitoring and evaluation specialist at the Economic Project. The
    Economic Project’s chief of party explained that the nature, type, and number of
    indicators on which the Economic Project reported did not justify a full-time
    monitoring and evaluation specialist. Rather, an assistant analyst compiled the

2
 A proxy indicator is an indirect measure of a result that is related by one or more assumptions
used to measure the result.



                                                                                              7
    performance data from the lead advisors of the four components and performed
    some data quality checks before sending the quarterly reports to USAID, but
    generally no supervisory reviews were done to check the data reported in each of the
    indicators.

•   No data quality assessments performed. Although the mission planned to conduct
    formal data quality assessments of the Economic Project’s performance indicators in
    December 2004 and January 2007, it did not do so. This lack of assessments is
    discussed further in the next finding area starting on page 9.

As a result of these issues, the Economic Project’s performance management plan was
outdated and was not effective for observing progress and measuring actual results
compared to expected results.

Both the cognizant technical officer and chief of party for the Economic Project explained
that the performance management plan process and performance indicators were
somehow overshadowed by other performance monitoring and reporting tools, such as
the annual work plan, regular coordination meetings between the mission and the
Economic Project (weekly at first, later becoming biweekly), monthly contractor meetings
with the U.S. Embassy/Ulaanbaatar chaired by the Ambassador, quarterly performance
reports submitted to USAID, monthly invoice examinations, and daily phone
conversations and e-mails. Because of the close coordination and working relationship
between the mission and the Economic Project, the performance management plan
became less useful and relevant as a monitoring tool; thus it was to a certain extent
neglected and not updated.

However, USAID’s TIPS Number 7, Preparing a Performance Management Plan, states
that a performance management plan is a critical tool for planning, managing, and
documenting data collection. It contributes to the effectiveness of the performance
monitoring system by assuring that comparable data will be collected on a regular and
timely basis. These data are essential to the operation of a credible and useful
performance-based management approach.

Additionally, USAID/Mongolia’s contract with Chemonics required that the Economic
Project’s performance management plan be updated annually together with the annual
work plan. ADS 203.3.4.6 also states that a performance management plan should be
updated annually. Periodic updates ensure the usefulness and relevance of a
performance management plan. An outdated performance management plan provides
little assistance in the timely and consistent collection of performance data.

USAID/Mongolia officials and the Economic Project’s chief of party recognized the
weaknesses with the performance management plan and took swift actions to improve it
during the audit. A monitoring and evaluation specialist from Chemonics’ headquarters
in Washington, DC, came to Mongolia on temporary duty to analyze the performance
management plan and its 39 performance indicators, perform a data quality assessment
of the data used to support selected key indicators, determine what activities and results
were not being captured by the indicators, produce an updated version of the Economic
Project’s performance indicators and results as of December 31, 2007, and realign the
Economic Project’s results framework with the new Foreign Assistance Standardized
Program Structure. In addition, they explained that both the mission and the Economic



                                                                                        8
Project would institute a formal review of the Economic Project’s performance indicators
in June of each year during the 3-year contract extension.

In discussing the lack of continuity with the Economic Project’s cognizant technical
officer, USAID/Mongolia explained that the current cognizant technical officer, who is
also the mission’s senior program manager, signed a new U.S. Personal Services
Contract for another 4 years effective on May 15, 2008. This should provide the needed
continuity and continuous attention to the Economic Project’s performance management
plan and performance reporting through the 3-year extension of the contract (October
2008 to October 2011).

Regarding the lack of a full-time monitoring and evaluation specialist at the Economic
Project, the chief of party elevated the assistant analyst position to include monitoring
and evaluation specialist duties such as organizing data collection, analyzing data,
verifying data quality, providing overall quality control of project monitoring and
evaluation data, and establishing new performance management plan procedures to
simplify and centralize the process.

Because USAID/Mongolia and the Economic Project took immediate corrective actions
during the audit, this audit does not have any recommendations in those areas.
However, because the Economic Project’s performance management plan was
outdated, this audit makes the following recommendation to help improve the Economic
Project’s performance management plan in the new contract extension period:

   Recommendation No. 1: We recommend that USAID/Mongolia issue a Technical
   Directive to Chemonics that requires the Economic Policy Reform and
   Competitiveness project to annually update its performance management plan to
   ensure the usefulness and relevance of the performance indicators and targets,
   and submit it to USAID/Mongolia for review and approval.

Mission Needs to Conduct Data
Quality Assessment of Economic
Project’s Performance Indicators

 Summary: USAID policy requires operating units to conduct a data quality
 assessment at least every 3 years for all performance data formally submitted in the
 unit’s annual report. In December 2004 and January 2007, USAID/Mongolia planned
 to conduct formal data quality assessments of the Economic Project’s performance
 indicators and its reported results. However, the assessments were not done
 because they were a lesser priority in the confines of a small mission with limited staff
 resources. Without such assessments, the quality of data being collected and
 reported was simply assumed and data limitations, if any, were not documented and
 recognized. As reported in the previous section of this report, the audit identified a
 number of data quality issues with the Economic Project’s performance management
 plan, indicators, targets, data collection, and reported results.

ADS 203.3.5.2 requires that operating units conduct data quality assessments at least
every 3 years for all indicators reported in USAID’s annual reports and for other data
included in special reports to Congress or other oversight agencies. Such assessments


                                                                                             9
are intended to ensure that performance information is complete, accurate, and
consistent. ADS 203.3.5.3 explains that when conducting data quality assessments,
operating units must—

    •   Verify and validate performance information to ensure that data are of
        reasonable quality;

    •   Review data collection, maintenance, and processing procedures to ensure that
        they are consistently applied and continue to be adequate; and

    •   Retain documentation of the assessment in performance management files—a
        requirement that is in accord with general Federal requirements to document
        significant events and to retain such documentation for future examination.

USAID/Mongolia planned to conduct formal data quality assessments of the Economic
Project’s performance indicators and its reported results in December 2004 and January
2007, but neither the mission nor the Economic Project conducted them.

USAID/Mongolia officials explained that they did not conduct the planned data quality
assessments primarily because of competing priorities; they gave lesser priority to
performing the data quality assessments with the limited staff resources available in
such a small mission.3 The mission managed a portfolio of 10 projects, including the
Economic Project, along with frequent congressional delegation visits to Mongolia, and
ad hoc tasks from both the U.S. Embassy/Ulaanbaatar and USAID/Washington.

Data quality assessments are a key element of USAID's performance monitoring system
and a good management practice. Because the mission had not conducted data quality
assessments, the audit identified a number of data quality issues with the Economic
Project’s performance management plan, indicators, targets, data collection, and
reported results. The quality of data being collected and reported was simply assumed
and data limitations were not documented and recognized. Flawed data may have led to
erroneous management decisions. The cognizant technical officer explained that many
of the issues identified in this report would have been identified and corrected if data
quality assessments had been conducted.

Because the Economic Project’s results framework and performance indicators will
change under the contract extension period that will begin in October 2008, this audit
makes the following recommendation:

    Recommendation No. 2: We recommend that USAID/Mongolia issue a written
    mission procedure to conduct a data quality assessment of the Economic Policy
    Reform and Competitiveness project’s performance indicators by October 2009
    and to conduct subsequent assessments as needed during the remaining
    contract extension period.




3
 USAID/Mongolia’s staffing was composed of one U.S. direct hire, one U.S. personal services
contractor, and three foreign service nationals.



                                                                                        10
EVALUATION OF
MANAGEMENT COMMENTS
Based on the Office of Inspector General’s review of USAID/Mongolia’s comments,
detailed actions, and supporting documents received, the audit determined that final
actions have been taken on both recommendations.

For Recommendation No. 1, the mission modified its contract with Chemonics to require
that Chemonics submit a new Performance Management Plan to USAID for review and
approval no later than September 18, 2008. Additionally, the contract was modified to
require Chemonics to amend the Performance Management Plan on an annual basis,
and add, delete or revise the performance indicators and targets as appropriate, and that
annual updates shall be submitted to the cognizant technical officer no later than
September 18 in each subsequent year of the contract.

For Recommendation No. 2, the mission clarified its responsibilities for conducting data
quality assessments of the Economic Project’s performance indicators in the same
contract modification described above. Specifically, the contract modification states that
USAID will conduct formal data quality assessments of the Economic Project's
performance indicators by October 2009 and subsequent assessments will be
conducted as needed during the implementation of the contract, which may include
detailed assessment of the Economic Project’s organization, management, field work,
significant outputs, performance/schedule data, and the quality and quantity of overall
performance.

USAID/Mongolia’s written comments on the draft report are included in their entirety
(without attachments) as appendix II to this report.




                                                                                       11
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Manila conducted this performance audit in accordance
with generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

The audit was designed to determine whether USAID/Mongolia’s Economic Policy
Reform and Competitiveness Project (Economic Project) achieved planned results and
what its impact has been. The audit covered Economic Project activities implemented
by Chemonics International, Inc. (Chemonics) and its subcontractors from the start of the
project in September 2003 through December 31, 2007. As of December 31, 2007,
USAID/Mongolia had obligated about $19 million and disbursed $17 million for the
Economic Project’s activities. This report summarizes the results of audit work
conducted in Mongolia from May 28 to June 19, 2008.

In planning and performing the audit, we assessed the effectiveness of internal controls
used by USAID/Mongolia and Chemonics to monitor Economic Project activities, which
included testing the accuracy and reliability of the Economic Project’s reported actual
results for selected performance indicators.

Methodology

To assess the achievement of planned results, the audit measured actual results against
targets for 25 of the Economic Project’s key performance indicators in calendar year
2007 and judgmentally selected 14 of those indicators to test the accuracy of reported
results. (An additional 14 indicators could not be used, as discussed in the first finding
area beginning on page 6.) Furthermore, the audit judgmentally selected 40 of the most
significant from the 100 planned activities in the Economic Project’s 2007 annual work
plan and verified whether the Economic Project delivered as planned on those activities,
many of which contributed to the achievements in table 1 on page 4.

To determine the Economic Project’s impact, the audit evaluated how the Economic
Project contributed to accelerating the policy reform process in Mongolia, promoting
increased competitiveness in the Mongolian economy, and enabling and supporting
Mongolia’s competitive participation in the global economy.

We interviewed cognizant officials from USAID/Mongolia, the U.S. Embassy in
Ulaanbaatar, Chemonics and its subcontractors, and the Economic Project’s
counterparts in the Government of Mongolia, such as the chairman of the Energy
Regulatory Authority (Authority), the Authority’s director of the Audit Department, the
commissioner of the General Department of National Taxation, and the Governor of
Khentii province. We also met with the Economic Project’s counterparts in the business
sector, such as the director of the Mongolian Mortgage Corporation, chief executive
officer of XacBank (and chairman of the Credit Information Bureau Working Group), and



                                                                                       12
                                                                              APPENDIX I


the managing director of Battour Travel Agency. Finally, we met with the head of the
Chamber of Commerce and Industry in Khentii province and the executive director of a
local nongovernmental organization operating in Khentii province.

We analyzed relevant documents at USAID/Mongolia and the Economic Project. These
documents included the contract between USAID/Mongolia and Chemonics, contractor
performance reports, work and operational plans, performance management plans,
progress reports, other monitoring reports, and financial records.

We conducted site visits of Economic Project-supported activities such as the Mongolian
Mortgage Corporation, Tourist Information Center, Credit Information Bureau Working
Group, and competitiveness activities in Khentii province.

For each performance indicator selected for review, the audit considered the following
materiality threshold criteria to measure progress made on the Economic Project:

   •   The planned result would be achieved if the target number were met.

   •   The planned result would be partly achieved if progress were made toward
       meeting the target number.

   •   The planned result would not be achieved if no progress were made toward
       meeting the target number.

When testing the accuracy and reliability of actual results reported, we considered
exceptions totaling 5 percent or more to represent significant issues that merit reporting.
We not only considered the above threshold criteria, but also used auditor judgment to
determine the applicability of the threshold criteria, considering other factors such as
significance of the selected performance indicators and timeliness of funds distribution.




                                                                                        13
                                                                    APPENDIX II



MANAGEMENT COMMENTS

September 18, 2008


September 18, 2008

MEMORANDUM

TO:             Regional Inspector General/Manila, Catherine M. Trujillo

FROM:           USAID/Mongolia Country Representative, Barry K. Primm /s/

SUBJECT:        Audit of USAID/Mongolia's Economic Policy Reform and
                Competitiveness Project (Report No. 5-438-08-OOX-P)

This memorandum constitutes and transmits the written comments and
responses of USAID/Mongolia on the two recommendations made in the subject
audit.

Recommendation No. 1: "We recommend that USAID/Mongolia issue a
Technical Directive to Chemonics that requires the Economic Policy Reform and
Competitiveness project to annually update its performance management plan to
ensure the usefulness and relevance of the performance indicators and targets,
and submit it to USAID/Mongolia for review and approval."

    Mission Response: In July 2008, in response to Recommendation No. 1 and
in full consultation with Chemonics, RIG/Manila, the Regional Financial Service
Center USAID/Philippines Controller (as USAID/Mongolia Audit Management
Officer), and the Office of Regional Procurement in Manila, a formal amendment
(Amendment #13; attached) to the Chemonics contract was drafted and
executed. Inter alia, Amendment #13 amended Section F.2.h of the contract,
"Comprehensive Performance Monitoring and Evaluation", by requiring that
Chemonics submit a new Performance Management Plan (PMP) to USAID no
later than September 18, 2008 for USAID review and approval. Section F.2.h of
the contract was further amended to require Chemonics to amend the PMP on
an annual basis, and add, delete or revise the performance indicators and targets
of the project as appropriate. Annual updates "shall be submitted to the CTO no
later than September 18 in each subsequent year of the contract."

Recommendation No. 2: "We recommend that USAID/Mongolia issue a written
mission procedure to conduct a data quality assessment of the Economic Policy
Reform and Competitiveness project's performance indicators by October 2009


                                                                              14
                                                                   APPENDIX II


and to conduct subsequent assessments as needed during the remaining
contract extension period."

    Mission Response: In July 2008, in response to Recommendation No. 1
and in full consultation with Chemonics, RIG/Manila, the Regional Financial
Service Center USAID/Philippines Controller (as USAID/Mongolia Audit
Management Officer), and the Office of Regional Procurement in Manila, a formal
amendment (Amendment #13; attached) to the Chemonics contract was drafted
and executed Inter alia, Amendment #13 amended Section E.5 of the contract,
"Monitoring and Evaluation", by requiring that "...Formal data quality
assessments (DQAs) of the project's performance indicators will be conducted
pursuant to ADS instructions by October 2009. Subsequently, evaluations or
assessments will be conducted as needed during the implementation of the
contract. Such evaluations and/or assessments will be conducted by USAID or
its designated representative, and may include detailed assessment of the
project’s organization, management, field work, significant outputs,
performance/schedule data, and the quality and quantity of overall
performance…".

We look forward to receiving feedback from the Regional Inspector General
regarding the above comments and actions of USAID Mongolia.




                                                                            15
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
